FISCAL YEAR 2013 RISK ASSESSMENT OF 

 DEPARTMENT OF JUSTICE CHARGE CARD 

             PROGRAMS


          U.S. Department of Justice 

        Office of the Inspector General 


                Report 14-34 

               September 2014

              FISCAL YEAR 2013 RISK ASSESSMENT OF

          DEPARTMENT OF JUSTICE CHARGE CARD PROGRAMS 


                                EXECUTIVE SUMMARY


       The Government Charge Card Abuse Prevention Act of 2012 (Charge Card
Act) requires that Inspectors General conduct periodic assessments of charge card
programs to identify and analyze risks of illegal, improper, or erroneous purchases
and payments.1 Generally, the Department of Justice Office of the Inspector
General’s (OIG) review found that these risks, particularly regarding liability for
costs resulting from employee misuse, are higher to the Department of Justice
(Department or DOJ) for charge cards that are centrally-billed to the Department,
and relatively lower for charge card products that are billed to individual
cardholders. Our review also identified specific areas relating to charge cards
where we believe the Department should take action to reduce its risks of illegal,
improper, or erroneous purchases and payments, including cardholder misuse.

       To perform this assessment, we reviewed Department of Justice (DOJ or
Department) policies and procedures, as well as sample transactions, relating to
four different types of charge card purchasing methods covered by this report:
(1) purchase cards, which are generally centrally billed accounts used to buy items
and services; (2) travel cards, which are usually individually billed accounts used by
employees to pay for costs associated with official travel; (3) integrated cards,
which can be a combination of charge card types (purchase and travel) in a single
account; and (4) convenience checks, which can be written from specially-
designated purchase or integrated card accounts to pay for goods and services from
vendors that do not accept charge cards.

      We found that in fiscal year (FY) 2013, the Department’s 47,000 active
purchase, integrated, and travel charge card accounts processed more than
$900 million in procurement. Purchase cards accounted for about $700 million
(75 percent) of the total dollar amount; travel cards accounted for more than
33,000 (70 percent) of the total number of active charge card accounts.

        Regarding centrally-billed purchase, travel, and integrated cards, our testing
did not reveal specific instances of misuse. However, we identified more than
640 purchase, travel, and integrated card accounts that had recorded no charges
for at least 180 days and therefore should be suspended or closed. DOJ has closed
most of the inactive purchase card accounts and the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) told us that it reviewed the inactive integrated card
accounts and suspended or closed those that were unnecessary. We also found
that the Department’s efforts to ensure regular reconciliations of purchase cards
could be improved, as could its efforts to ensure proper training regarding
integrated and travel card accounts. With respect to the purchasing methods
included in this assessment, centrally-billed card accounts present a relatively
moderate risk for misuse that we believe will be largely mitigated once corrective
action is taken to address the issues raised in this risk assessment.


      1
          Pub. L. No. 112-194 (2012).



                                           i
       Regarding individually-billed travel card accounts, although we identified
specific areas in which management and oversight can be improved – including
travel card transactions that occurred when employees were not on official travel
status – we determined the overall risk to the Department of illegal, improper, or
erroneous transactions to be low because, for these accounts, the individual card
holder, not the government, is liable to pay balances in full and on time.

       While we believe convenience checks are the charge card purchasing method
that presents the highest risk of misuse, we also note that they are much less
frequently used than the other methods we examined: in FY 2013, Department
employees wrote 1,000 such checks for a total of just over $500,000.
Nevertheless, our review tested 50 high-dollar convenience checks with a total
value of over $132,000 and identified a total of 6 checks valued at $11,679 that
were either unallowable or unsupported because the employee wrote a check to a
vendor that accepted charge cards; the employee converted a check to cash; or the
employee’s component could not provide an invoice or evidence of prior supervisory
approval, as applicable, to use a convenience check to make a purchase.

      Finally, we found that the risks to the Department are concentrated in
employee misuse, and not in fraudulent transactions. This is because the servicing
bank, and not the government, is liable to pay for fraudulent transactions.

       Our report contains detailed information on the results of our risk
assessment, and provides four recommendations to the Department’s Justice
Management Division, ATF, and the Federal Bureau of Investigation to improve
internal controls and help reduce the risk of fraud, waste, and misuse associated
with charge cards.




                                         ii
             FISCAL YEAR 2013 RISK ASSESSMENT OF 

         DEPARTMENT OF JUSTICE CHARGE CARD PROGRAMS 


                                     TABLE OF CONTENTS 


Introduction ................................................................................................1

DOJ Charge Card Activity and Oversight .....................................................1

Risk Assessment Approach .........................................................................2

Purchase Cards ...........................................................................................3

  Purchase Card Reconciliations ..................................................................... 5 

  Inactive Purchase Card Accounts ................................................................. 5 

Integrated Cards.........................................................................................6

  Inactive Integrated Card Accounts ............................................................... 6 

  Integrated Card Training............................................................................. 7 

Convenience Checks ....................................................................................7

Travel Cards ................................................................................................8

  Former Employees with Active Travel Card Accounts ..................................... 10 

  Travel Card Misuse .................................................................................. 11 

  Centrally-Billed Travel Card Accounts ......................................................... 11 

  Travel Card Training................................................................................. 12 

Conclusions ............................................................................................... 12

Recommendations..................................................................................... 13

APPENDIX I – JUSTICE MANAGEMENT DIVISION RESPONSE TO THE                                                

   DRAFT REPORT ...................................................................................... 14

APPENDIX II – FEDERAL BUREAU OF INVESTIGATION RESPONSE TO THE                                                

   DRAFT REPORT ...................................................................................... 16

APPENDIX III – BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND 

  EXPLOSIVES RESPONSE TO THE DRAFT REPORT ................................... 18

APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT ................. 19

                FISCAL YEAR 2013 RISK ASSESSMENT OF 

            DEPARTMENT OF JUSTICE CHARGE CARD PROGRAMS 


Introduction

       The Department of Justice (DOJ or Department) uses charge cards to procure
goods and services. Each DOJ component is responsible for maintaining internal
controls that reduce the risk of fraud, waste, and misuse associated with charge
cards. The Government Charge Card Abuse Prevention Act of 2012 (Charge Card
Act) requires that federal agencies establish and maintain specific safeguards and
internal controls to improve their charge card and convenience check programs.1
In addition, the Charge Card Act requires that Inspectors General conduct periodic
risk assessments of agency purchase card or convenience check programs, and
periodic audits or reviews of travel card programs, to analyze risks of illegal,
improper, or erroneous purchases and payments.

       The Charge Card Act addresses four primary types of government purchasing
methods relating to charge cards covered by this report: (1) purchase cards, which
are generally centrally billed accounts used to buy items and services; (2) travel
cards, which are usually individually billed accounts used by employees to pay for
costs associated with official travel; (3) integrated cards, which can be a
combination of charge card types (purchase and travel) in a single account; and
(4) convenience checks, which can be written from specially-designated purchase
or integrated card accounts to pay for goods and services from vendors that do not
accept charge cards.2

DOJ Charge Card Activity and Oversight

       At the end of fiscal year (FY) 2013, DOJ had 9,298 active purchase card
accounts that reported over $705 million in activity during the fiscal year. At the
same time, DOJ had 33,249 active travel card accounts with over $194 million in
activity and 3,984 active integrated card accounts with over $38 million in activity.
In addition, 85 DOJ employees had the authority to use convenience checks and
wrote 1,000 checks valued at more than $513,000.

       Charge card programs require vigilant oversight to ensure the program’s
integrity, ensure the proper use of charge cards, and reduce the risk of misuse to
the agency. Besides the card holders themselves, other employees have been
designated important charge card program oversight responsibilities.




        1
              Pub. L. No. 112-194 (2012).
        2
              Throughout FY 2013, JPMorgan Chase serviced the charge card program for the Department
of Justice.
   	 Agency Program Coordinator. DOJ and each component have at least one
      agency program coordinator (APC) with the ultimate responsibility of
      overseeing charge card programs and implementing policies and procedures
      governing charge card use. APCs maintain access to all activity posted to
      individual charge card accounts through PaymentNet, an online system
      provided by the servicing bank. APCs serve as the primary liaison between
      their component and the charge card servicing bank, and collect and transmit
      data regarding charge card use to DOJ and component leadership.

   	 Travel or Purchase Card Coordinator. These employees assist the APC
      by regularly reviewing account activity reports to identify instances of
      potential purchase or travel card misuse.

   	 Approving Officials. Approving officials are usually supervisors at the office
      or district level that must authorize charges before they are incurred and
      review monthly purchase card reconciliations and travel vouchers.

       Despite an inherent risk for misuse, charge card programs offer an efficient
method to purchase items and make payments. With this understanding, the
Federal Acquisition Regulation requires that federal agencies maximize charge card
use to the extent practicable.3 The Justice Management Division (JMD), which
implements DOJ purchase and travel card policies, has directed that all components
try to use charge cards whenever possible in lieu of issuing purchase orders or
relying on convenience checks or other third party drafts.

       Regardless of the type of purchasing method, the servicing bank, and not the
government, is liable to pay for fraudulent transactions. In contrast, the
Department’s responsibility to pay for charges resulting from employee misuse
largely depends on whether a particular account is centrally billed to the
Department or individually billed to the cardholder. For centrally billed accounts,
which include most purchase cards and some integrated cards, the Department
directly pays all charges on the account, even if the charge constituted misuse.4 For
individually-billed accounts, which include most travel cards and the integrated
cards that are not centrally billed, the cardholders are responsible to pay the
balance of the accounts when they receive their monthly statements.

Risk Assessment Approach

      The objective of this risk assessment of DOJ charge cards was to address the
Charge Card Act requirement to analyze the risk of illegal, improper, or erroneous
charge card purchases and payments. To conduct our review, we applied the


       3
           See 48 C.F.R. § 13.003(e) (2014) (pertaining to simplified acquisitions).
        4
          5 C.F.R. §1315 (2014). Centrally billed accounts are reconciled monthly. The Department
seeks to recoup the money of an erroneous or improper charge from card holders. In addition, an
employee who abuses charge cards may be disciplined.



                                                   2

internal control assessment framework promulgated by the Committee of
Sponsoring Organizations of the Treadway Commission.5

       To perform this assessment, the Department of Justice Office of the
Inspector General (OIG) reviewed Department-level policies and procedures in
effect throughout FY 2013. When appropriate, we relied upon the results of charge
card program reviews that JMD performed as required by the Office of Management
and Budget (OMB) Circular A-123, Management's Responsibility for Internal
Control. We considered other component activity in two specific areas: (1) for
integrated cards, we reviewed how the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) managed and used integrated cards because it is the only DOJ
component to use integrated cards; and (2) for convenience checks, we assessed
ATF and the Federal Bureau of Investigation (FBI) activity because these two
components were responsible for issuing over 99 percent of convenience checks
during FY 2013.

       Using the criteria identified in the Charge Card Act, we assessed activity to
determine whether safeguards and internal controls were present and functioned as
intended. In addition, we reviewed the annual purchase and travel card audit
status report to OMB to determine the impact of prior audit findings on DOJ charge
card programs.

Purchase Cards

       Purchase cards are a primary procurement method DOJ uses to acquire
goods and services. Each DOJ purchase card account has a single transaction limit
(usually $3,000 for goods and $2,500 for services) and monthly purchase limits.
Generally, purchase card accounts are centrally billed and a component pays
account balances automatically. Exhibit 1 outlines the general steps that JMD
purchase card account guidelines state need to be performed for every purchase
card transaction.




       5
          Committee of Sponsoring Organizations of the Treadway Commission (COSO), Internal
Control – Integrated Framework (May 2013). COSO is a joint initiative of five private sector
organizations and is dedicated to providing leadership through the development of frameworks and
guidance on enterprise risk management, internal control, and fraud deterrence.



                                                 3

               EXHIBIT 1: PURCHASE CARD TRANSACTION STEPS





    Source: OIG summary of JMD purchase card policies

       Each purchase must be approved by an approving official and obligated by a
budget officer before the card holder can use a purchase card to buy a needed good
or service. Department-level charge card policies state that purchase card holders
may be held personally liable for purchase card misuse.

       For this portion of our assessment, we reviewed guidelines and procedures
effective as of the end of FY 2013 and the results of JMD’s internal control
assessment performed in accordance with OMB Circular A-123. We also analyzed a
universe of nearly 300,000 purchase card transactions (all DOJ purchase card
activity between June 1, 2013, and September 30, 2013) and scored and ranked
transactions to identify those with elements indicative of being illegal, improper, or
erroneous.6

      Our analysis and scoring of purchase card transactions identified
84 transactions across the Department most at risk of being illegal, improper, or

       6
         The scoring system methodology added a point to each transaction with the following
elements: (1) having a suspicious merchant name or merchant category code; (2) processed using a
mobile payment system, such as Square; (3) occurring on only one purchase card using a mobile
payment system; (4) occurring on a weekend; (5) made using a convenience check; (6) constituted a
cash advance; (7) exceeded the account’s single purchase limit; (8) totaled an even-dollar amount.



                                                4

erroneous and therefore meriting further review. We contacted component-level
APCs and requested the supporting documents related to the identified
transactions. The APCs provided supporting documents showing that the
transactions were appropriate and received the required prior approval, and that
card holders complied with transaction and billing limits and reconciled statements
as required.

Purchase Card Reconciliations

       Purchase card statements must be reconciled by the card holder and
reviewed by the approving official before the end of each month. An adequate
reconciliation includes a line-by-line review of all transactions on the monthly
statement. Each transaction must be supported by, as applicable, the purchase
card transaction form showing prior approval and obligation of funds needed to pay
for the purchase, a receiving report, and the invoice. Approving officials are
responsible for maintaining reconciled monthly statements. As part of the OMB
Circular A-123 review, JMD found that purchase card holders did not always
perform or approving officials did not review and maintain monthly reconciliations.7

       Because components automatically pay outstanding purchase card balances,
card holders and approving officials need to reconcile and review monthly
statements carefully to ensure that the Department only pays for goods and
services actually received. We recommend that JMD periodically issue reminders to
both purchase card holders and approving officials regarding the importance of
performing and reviewing monthly reconciliations for every active account. These
reminders should reiterate that purchase card holders and approving officials can
be held personally liable for improper purchases.

Inactive Purchase Card Accounts

      Inactive purchase card accounts that remain open for an extended period of
time are susceptible to an increased risk of potential loss or misuse. We reviewed
account activity to identify specific inactive accounts.

      Our sample of purchase card account activity identified more than
200 DOJ purchase card accounts inactive for either more than 180 days or
365 days.8 We note, however, that our sample covered the time period during the
2013 federal budget sequestration, which likely limited purchase card activity
across the Department and increased the number of inactive accounts.

        7
          The results of JMD’s review of its purchase card reconciliations align with the findings of two
previous OIG audit reports that identified instances in which approving officials at another DOJ
component did not review card holder reconciliations. U.S. Department of Justice Office of the
Inspector General, Audit of the Financial Management of the United States Marshals Service’s Office in
the Superior Court of the District of Columbia, Audit Report 13-24 (June 2013) and Audit of the United
States Marshals Service's Procurement Activities, Audit Report 13-05 (December 2012).
        8
         Depending on the component, a purchase card account is considered inactive if the account
has remained unused for either more than 180 days or more than 365 days. Our testing applied the
same baseline of inactivity that the specific component used to define an inactive account.

                                                   5

Additionally, since the time of our review, DOJ components have closed most of the
inactive accounts we identified, as required by the DOJ Charge Card Management
Plan.9

      Among the more than 200 inactive purchase card accounts we identified
were 6 non-JMD accounts that were unused because the card holder was no longer
an employee or was on extended leave. Although DOJ has since closed these six
accounts, we recommend that JMD update the DOJ Charge Card Management Plan
to ensure that the appropriate purchase card APCs receive notification when an
employee with a purchase card leaves employment and promptly cancels all
associated purchase card accounts.

Integrated Cards

       ATF uses integrated cards, which can be used for different types of
transactions (such as purchases or travel) depending on the designation of the
account. ATF policies and procedures delineate the types of purchases card holders
may make based on that employee’s official duties. Integrated cards may be
individually billed to the card holder or centrally billed to the agency, depending on
the merchant category code of the purchase. Regardless of whether the account is
individually or centrally billed, the card holders are individually responsible for all
transactions appearing on their account.

        Similar to our assessment of purchase cards, we reviewed ATF integrated
card use guidelines and procedures in effect during FY 2013. We also considered
the results of JMD’s internal control review of ATF’s integrated cards performed in
accordance with OMB Circular A-123. To a universe of over 376,000 integrated
card transactions, we applied the same methodology we used for the purchase card
review to score and rank transactions with elements indicative of being illegal,
improper, or erroneous. Although we did not identify any specific transaction to be
at exceptionally high risk, we judgmentally sampled transactions in the five
integrated card accounts that recorded the most activity and determined that the
card holders received the required prior approval and complied with transaction and
billing limits and reconciled statements as required.

Inactive Integrated Card Accounts

        ATF’s Card Services Unit (CSU) assesses the appropriateness of card holder
limits and opens, suspends, and cancels integrated card accounts. In
February 2013, CSU began receiving notices from PaymentNet regarding accounts
with no transaction activity for 180 days. Upon receiving this notification, CSU
officials told us that they follow up with the card holder to determine why there has
been no account activity and, depending on the reason provided, CSU suspends or
closes the account.
       9
          The 2014 DOJ Charge Card Management Plan requires accounts that have been inactive for
more than 365 days to be cancelled unless there is a business need to maintain the account and it
remains in suspended status. The final decision is made by the APC.



                                                6

       During our review of ATF integrated card accounts, we identified more than
400 accounts with more than 180 days of inactivity. We brought this issue to the
attention of CSU officials who stated that these accounts may have been inactive
before the notification process began in February 2013. Because the system did
not retroactively notify CSU regarding accounts with more than 180 days of
inactivity, CSU was not aware of the status of these accounts.

      While we confirmed that the 400 inactive accounts had no outstanding
balances, we believe that accounts that remain inactive for extended periods of
time present an increased risk of being misused. CSU officials told us that they
have reviewed the accounts and suspended or closed those that it deemed
unnecessary.

Integrated Card Training

       ATF policies require that new card holders complete a charge card training
course within 60 days after being issued a card. In addition, current integrated
account holders must complete a refresher training course every 3 years. ATF’s
Financial Management Division (FMD) is responsible for tracking the training status
of each ATF employee. LearnATF, the electronic training system used by ATF, can
be programmed to prompt card holders to take refresher training through e-mail
alerts. Using this method, the card holders and their supervisor will continue to
receive notifications until the training is completed.

       When ATF conducted its FY 2013 OMB Circular A-123 review, it found that
4 out of 30 tested integrated card holders did not take the required training or
could not provide evidence they received the training. In response, ATF stated that
it would suspend accounts of employees who did not take the required training. We
believe that ATF’s plan to suspend these accounts constitutes an important step
towards mitigating the risk of integrated card misuse.

Convenience Checks

      Convenience checks provide a method by which specially designated card
holders may procure goods and services from merchants who do not accept charge
cards. The servicing bank issues convenience checks to designated card holders,
who individually maintain them and use them to make purchases. However,
because convenience checks lack many of the internal controls usually associated
with charge cards and incur additional fees (usually equal to 2 percent of the
purchase amount), Department-level guidance states that convenience checks
should only be used as a payment method of last resort. APCs designate the card
holders who may write convenience checks on an employee-by-employee basis and
only 85 DOJ employees have been granted the authority to write convenience
checks.

      During FY 2013, DOJ issued a total of 1,000 convenience checks – 719 at
ATF, 277 at the FBI, and 4 at other DOJ components. The combined value of these
checks was over $513,000. Because of the concentration of convenience checks

                                         7

usage at ATF and the FBI, we concentrated our testing on these two components.
We judgmentally sampled 50 high-dollar convenience checks (25 from each) to
ascertain whether the checks complied with established policies governing their use
and were properly approved and reconciled to monthly purchase card or integrated
account statements. The sampled checks had a total value of over $132,000, or
25 percent of the value of all convenience checks written during FY 2013.

       According to FBI and ATF policy, convenience checks may not be used to
obtain cash, pay fines or penalties, reimburse employees, purchase goods and
services that could be obtained with a purchase card, or circumvent procurement
controls (such as making split purchases to bypass individual transaction limits).
Nevertheless, we sampled 50 convenience checks and identified:

    	 1 ATF convenience check with a total value of $2,000 written to a vendor
       who, at the time of purchase, did not accept the charge card as payment;

    	 4 ATF convenience checks totaling $8,668 that lacked supporting documents
       evidencing items or services purchased and required CSU approvals;

    	 1 FBI convenience check for $1,011 to an employee who converted the funds
       to cash to pay a speaker fee to a covert individual.10

        Considering these issues, we reviewed how the FBI and ATF implemented
their convenience check guidelines and procedures. At ATF, a card holder must first
justify in writing that the particular vendor does not accept charge cards for
payment, and the card holder’s supervisor then reviews and approves the
justification prior to purchase. At the FBI, designated officials review convenience
checks after the purchase as part of the monthly reconciliation review. In addition,
the FBI centrally performs a quarterly review of all convenience check activity.
Under either approach, we believe that individual card holders and their approving
officials would benefit from periodic reminders of convenience check rules. We
therefore recommend that the FBI and ATF ensure that card holders authorized to
write convenience checks and their approving officials are aware and periodically
reminded of convenience check restrictions and approval requirements.

Travel Cards

        DOJ components provide travel cards to employees who expect to incur
official travel expenses such as transportation and lodging. Most of the travel cards
we reviewed had a billing cycle limit of $15,000. Unlike purchase cards, most DOJ
travel card accounts are individually billed to, and must be paid by, the card holder.
As shown in Exhibit 2, employees receive reimbursement for authorized expenses
only after preparing and submitting a travel voucher following official travel.

        10
            The FBI provided to us an analysis of its Draft System User Guide to show that this policy
did not permit another method in which to pay the fee to the covert individual because the individual
was not associated with a particular undercover operation. The FBI told us that it plans to revisit its
policies to provide more specific guidance that addresses this type of scenario.



                                                   8

                EXHIBIT 2: TRAVEL CARD TRANSACTION STEPS 





     Source: OIG summary of JMD travel card policies

        All travel costs must be estimated, approved, and obligated before an
employee begins official travel. Employees have 5 days after a trip ends to submit
a voucher detailing actual costs for reimbursement. Employees must pay off travel
card account balances within 25 days from their statement closing date regardless
of whether they have been reimbursed for travel expenses. Although DOJ
maintains no liability for costs stemming from employee travel card misuse and the
servicing bank is responsible for fraudulent charges not made by the travel card
holder, employees may not use their travel card to make purchases unassociated
with official travel. Employees intentionally misusing travel cards may be subject to
disciplinary action up to and including dismissal.

      We reviewed travel card guidelines and procedures in effect at the end of
FY 2013 that govern how employees at JMD and the Department’s Offices, Boards,




                                              9

and Divisions (OBD) should use travel cards.11 We also considered the results of
JMD’s internal control review of travel cards it performed in accordance with OMB
Circular A-123. In addition, we analyzed a universe of over 300,000 JMD and OBD
travel card transactions during FY 2013 and, applying the same methodology we
applied to purchase card transactions, scored and ranked those travel card
purchases based on transaction elements that increased the risk of a transaction
being illegal, improper, or erroneous. We also reviewed account level activity to
identify accounts that were inactive for over 180 days at the time of our review.

Former Employees with Active Travel Card Accounts

       Department-level travel card guidelines require that component-level travel
card coordinators cancel travel card accounts whenever an employee leaves
government service. Out of more than 30,000 active travel card accounts, we
identified 42 active travel card accounts that belonged to former employees.
Among these accounts, the period of time between the card holder separation date
and the date of our testing (June 24, 2014) ranged from 267 days to 613 days.
Although we did not identify activity on these active accounts following separation,
we found five accounts with unpaid balances ranging from $7 to $1,227.

       JMD officials told us that travel card coordinators might not always be
notified when a card holder leaves employment. Although liability for travel card
charges ultimately falls to the card holder or the servicing bank, not the
Department, active travel card accounts of separated employees nevertheless
increase the risk of travel card misuse. We therefore believe that a stronger,
department-wide control is necessary to ensure the closure of travel card accounts
associated with separated employees. As part of our similar recommendation
above regarding purchase card accounts associated with separated employees, we
also recommend that JMD update the DOJ Charge Card Management Plan to ensure
that travel card coordinators receive notification when an employee with a travel
card leaves employment and promptly cancel all associated travel card accounts.




        11
            The term OBD includes the: Office of the Attorney General, Office of the Deputy Attorney
General, Office of the Associate Attorney General, Community Relations Service, Executive Office for
Immigration Review, Executive Office for U.S. Attorneys, Executive Office for U.S. Trustees, Executive
Office for Organized Crime Drug Enforcement Task Forces, Office of Community Oriented Policing
Services, Office of Information Policy, Office of Legal Counsel, Office of Legal Policy, Office of
Legislative Affairs, Office of Professional Responsibility, Office of Public Affairs, Office of the Inspector
General, Office of the Pardon Attorney, Office of the Solicitor General, Office of Tribal Justice, Office on
Violence Against Women, Professional Responsibility Advisory Office, and U.S. National Central Bureau
(INTERPOL Washington).

        We excluded the Office of the Inspector General as a part of our assessment of JMD and OBD
travel card risk.



                                                     10 

Travel Card Misuse

       Our scoring and ranking of over 300,000 travel card transactions identified
412 potentially questionable charges totaling $93,351.12 From this population, we
judgmentally selected a sample of 35 transactions with a value of $10,730 based
on high-dollar amounts and vendor descriptions. Based on our review of
documents provided by components regarding these charges, we identified the
following seven transactions totaling $1,196, each of which related to expenses
incurred by employees who were not in official travel status at the time of the
charge.
                   EXHIBIT 3: TRAVEL CARD TRANSACTIONS 

                  FOR EMPLOYEES NOT ON OFFICIAL TRAVEL


                        Transaction                                  Amount
                            Date               Description             ($)
                       10/20/2013        Cash advance                    282
                       4/13/2013         Restaurant                      196
                       1/26/2013         Restaurant                      186
                       11/17/2012        Dry cleaning                    170
                       2/16/2013         Cash advance                    142
                       9/1/2013          Restaurant                      110
                       8/24/2013         Restaurant                      110
                                                             Total    $1,196
                      Source: OIG analysis of travel card activity

       We confirmed that the charges listed above have been paid in full.
Department officials also told us that at least three of the transactions listed in
Exhibit 3 had been identified by travel card coordinators and supervisors before we
notified them of the questionable charge, and that all employees who knowingly
made the above transactions outside of travel status have been counseled or
otherwise disciplined.

Centrally-Billed Travel Card Accounts

       A subset of travel card accounts is referred to Government Transportation
Accounts (GTA) and is centrally billed, documented, and paid like purchase cards.
DOJ components establish GTAs to pay for travel expenses incurred by non-
Department employees or employees who do not have a travel card. Examples of
individuals we found whose travel costs are paid with GTAs include witnesses, guest
speakers, and new employees.

        Each component’s APC is responsible for overseeing and assigning GTA
account access. The travel card coordinator must reconcile GTA charges each
billing cycle. We reviewed GTA activity and sampled 10 high-dollar transactions
based on merchant description and found that all sampled transactions were
supported and allowable. We did not identify any GTA activity associated with
employees assigned an individually billed travel card.

       12
           We focused our review on charges that were greater than $75 because travelers are not
required to attach to the travel voucher invoices for most claimed expenses that are less than $75.

                                                 11 

Travel Card Training

        DOJ’s charge card management plan requires that employees receive travel
card training that outlines the proper use of travel cards before they obtain a travel
card. In addition, the plan states that all card holders should receive a refresher
training session every 3 years. The web-based training provided to card holders
instructs employees on the proper use of travel cards, underscores their individual
liability for improper travel card use, outlines what constitutes an unallowable
expense, and explains how to dispute a fraudulent or incorrect charge with the
servicing bank. After completing training, employees must certify to their APC that
they received the required training.

        We selected a judgmental sample of 20 card holders from the travel card
accounts that our testing found included charges that may be indicative of misuse.
From each travel card holder, we requested copies of their travel card training
certificates from the components. Of the 20 sampled travel card holders, 17 either
did not take or their components were not able to provide evidence that they
received the required training prior to receiving their travel cards. Some employees
told us that they did not know they needed to take the training while others stated
that they remembered receiving training sometime after new employee orientation.

        We believe that components must ensure that employees certify that they
have received training regarding the proper use of travel cards and track these
certifications. We therefore recommend that JMD work with other DOJ components
to implement a process that ensures component APCs receive and track all travel
card training certifications so they can identify and prompt card holders due to
receive required travel card refresher training.

Conclusions

       Our testing did not identify illegal, improper, or erroneous transactions
pertaining to centrally-billed purchase, integrated, and travel card accounts. We
identified numerous open accounts that had been inactive for a significant period of
time, but DOJ has closed the inactive purchase card accounts and ATF told us that
it is working to close inactive integrated card accounts. The relatively moderate
risk of misuse regarding centrally-billed purchase and integrated card accounts will
be largely mitigated once JMD ensures that card holders perform and supervisors
review monthly reconciliations, and both JMD and ATF improve their respective
tracking of purchase and integrated card training.

      Our testing of convenience checks identified several instances in which card
holders did not use convenience checks properly or maintain required supporting
documents. Based on these results, we believe that convenience checks present a
higher risk of misuse than purchase or integrated cards and that the Department
should periodically remind card holders with the authority to write convenience
checks of the policies governing their use.



                                          12 

       ATF officials told us that they have reviewed and suspended or closed
unnecessary inactive accounts. With regard to individually billed travel cards,
although we identified specific areas in which the management and oversight of
travel card accounts can be improved – including travel card transactions that
occurred when employees were not on official travel status – we determined the
overall risk to the Department of illegal, improper, or erroneous transactions to be
low because the individual card holder, and not the government, is liable to pay
balances in full and on time.


Recommendations

      We recommend that JMD:

         1. Periodically issue reminders to both purchase card holders and
            approving officials regarding the importance of performing and
            reviewing monthly reconciliations for every active account.

         2. Update the DOJ Charge Card Management Plan to ensure that
            appropriate purchase card APCs and travel card coordinators receive
            notification when an employee with a charge card leaves employment
            and promptly cancel all associated charge card accounts.

         3. Work with other DOJ components to implement a process that ensures
            component APCs receive and track all travel card training certifications
            so they can identify and prompt card holders due to receive required
            travel card refresher training.

      We recommend that the FBI and ATF:

         4. Ensure that card holders authorized to write convenience checks and
            their approving officials are aware and periodically reminded of
            convenience check restrictions and approval requirements.




                                         13 

                                                                                                                        APPENDIX I

            JUSTICE MANAGEMENT DIVISION
            RESPONSE TO THE DRAFT REPORT




   SEP 1: ;U 4
\1F.\~)~~ "I T HJ\ 1       FOR RAy),1O~ n J. H,:AUJ)i"T
                                   A ."S T ~ANT T\' ~~" M ()R          llnNPRAT ~0R Airon




~t:r) ,rr.c T                   ) ... k, M....~ "''',,,   1);,,;,..., R.,,,,,,,,,   I~   ,II< Off",. ,,/t1To In ,-...:,,,
                                G<I>«al n,af . R.p"~ : f i 'ql y"" I Q13 Ri<k ( " " "ln ept Qr n.",rtm, nt
                                or J!l.JI i" ( 'h.!o;, ned l'mg'OJn ,
TIl .. ""I"'Id> 10 (i>; om,eof ,»: hlllp«!or Oc;,:nl (010 1d.-.ft r"l,ort Fi",:LI Y"Cfl20IJ RbI<
A",'",U'"        IIflliUI1111"n' or ,' , ~i " ('hor., "'""1 PB'If:'"""

'11" J",,';" , \1 "".,"'-"''''
ioHo~iIlJ( 1";00''''''
                                   D"',,,m(1\1))) 1",-, ,,,''''VI''" ,h.       ~ " ~~
                            :0 tbe 0 1(;' , th"" ITCCIllIll<nJ.H "n.< 10 Ii>< J MD.
                                                                                         DIG '"I"'"      .,oJ 1" "'o.J.> LI ",

R.. ,"",m .. d.. koo I P,'rlo<i iaoiJy Wo, "'lniodm 10 bo lh JlU"'1u5c cw hdd<,.. 'w ' P;lro"injj
                           1''''' ,,,,,,. " r 1"~ , '",,,,",~ ""' I ""i ""'; n~ """" ~ IY ",,,,,,,,ili "iT", ' ,;. "<f)'
,dI "i .... " o,nli n~ I"" ."
"" i.. """"". ,
R<. p.n><, Jhc JMU ron:"" with thr 'r<CIllll"-""">li<ln, U, ri,.~ Fi""," YCHI' (FY ) 101j, I Mll
.. ,II ",nd pc""dlr """,-",,,.,.. '0 1'"'1'1>1>0 cord 1I<:t<kt:. Ol\J ",,"fO""'~ 0[[,,;, 1, <mp,"",j , ~ lhe
;'"1\ 1><1<1,"'" o[po,~liJrn,i "~ ....<1T\'\'k~in~ nu>.hl) t'\"..~",ili 'l i ~", !<.>r         '''''y
                                                                                        . "i ," ...",...1. J \U)
"""iJ".. ,,;, """"'m,,,,"';"""....,"'1,
R,·' ..... ,'.J"'". 2, lIpJ,,'" "'" OOl l1 ~, c..-..1 ).ta.'4'"""'" l'hn to .=ro thot , ~~rop" .'"
,,,,,I .. ,,, , <o J APC ... >.l " .,',' 1<"J wOIJh..,,,,, "'''''''         ,,,,,in,,,
                                                                          01' "n.1l .." ' '''I'''' ;~e .. ..h •
rn.r0" <"-lr, i('",'c, cmplo),""''' =I ~fQmpll)-' c"",,, 1,II ",..",i/O,," .; "'1;< ,",d                     """",ot'
R"'»<T "": 'I'M , J\Hl '-""" ,,'" wi ,h ,M
                                         .        ,,,,,",,",,,,",,'.'n, I M i, '~          ~   2'l l ' • .I \ 11 ) wi ll 'N ' " II><
n ">::,, (,,,,,, \1 .."W'"""                   «'"'(''''''''' 10 det"," i..~ &pf<C'flri."
                                   f'! .. . ·.1 ""r\ "i ' l,
' "' L.t K",' io,~ '" AfC. ",><.I lm'd , fmI ,·"" .tl",tO:O
                                                   "IT<.> "" om ploy« "in, • ' "" ~, ,n" I,,,'"
"" ploy,,""t '" 111=-o,; '-"~ c! ....~ 0"0 """'Ull" <.., b< w",, " ~ r "'nT l"ly JMn < " ,, ; ",-~,
,:,i, ,,,,,,,,,,,,-ru;!,, ion   ~"T.<I,


H."" .....   ·"I.'I,," .1: W'n w ,10 " II ... 1)( 1.1 01">1"1"'' ' '''' t, iITlp l""" ""            P<'=" lbol ""U".
"".('""'~ 11('(', ,",-'O i".       ,":1 .-.d , II I \r,,~ 1 <.,-d lr>ioi"~ w,;'Io.,ti,,,.. onJ "" It,,) "m iJ;'U lily
and   I"'llli~ c,,~    hole", d"o to ",,'';'T      ~'1 "; "~    ,,,,,'ct "" '~ ,.- ' IT,~, ~ ,,,,in; ,,,.




                                                          14 

p,.< 3 of!
.\1.",,,,,,,","., to< 11" A,~"an-IJ"j».~oJ 00<\",110 , " 'hl'!
Sll'.i'~C    I ''''''    ~I"""" mn \   fli,'H,,"   ~<",."''''   T" lh,   om" ,)fthe IMp<ctOr (imo,,1 ::lull
R,po; ' ~ ; l'i ,,~ 1   y",,, , Oil Rd   1 "'<'~"" ~ '''- ' i<I'O/u n'",  oj '"'ti" ella,", C'r:1l'rwr,yq

R"p. mo: r ho J~.u.) COOC",S ",ith tho ",oo,,,,,,,,,,,;"n , nwi,~ oy l~ 1 i, JMIJ wili              "'v,. "'ti.
",1." ' >0) """ PO"""" to "".>nO ' m"d cud hold", " wi,,' 'c~"ireJ 'mini"" w-.J cortil;"""",,
"" ""i",, ',,01, ] Mf) """id.", " i, =,,,,,,,,,,n<i,li,," ""0 ",d_

                          plea.''''''oo'"" m< 00 (~'O2) ll <·3lUl or _"T,OYOO"lS (( ""1,,,1 0,,",
It' )"" 11,-", que" .-,,~ ,
AII-""7, l),)r<11:; IJi,e<;W, fi"""", Still_]\tD m (102) 616-52 H




                                                         15 

                                                                                      APPENDIX II

              FEDERAL BUREAU OF INVESTIGATION
                RESPONSE TO THE DRAFT REPORT




                                                   u.s. Department of Justice
                                                   Federal Bureau of In vestigation


                                                   Washington, D. C. 20535-0001

                                                        September 24, 2014




The Honorable Michael E. Horowitz
Inspe\;lOr General
Office of the Inspector General
U.S . Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530

Dear Mr. Horowitz:

        The Federal Bureau of Investigation (FBI) appreciates the opportunity to review and
respond to your office 's report entitled, Fiscal Yeur 20 J3 Risk Assessmenl of Depar,menl of
Jus/ice Charge Card Programs.

         We are pleased you found , "At the FBI, designated officials review convenience checks
afier the purchase as part of the monthly reconciliation review. In addition, the FBI centrally
performs a quarterly review of all convenience check activity."

       We agree periodic reminders of convenience checks rules are helpful for cardholders and
approving officials. In that regard, we eoncur with your one recommendation for the FBI.

        Should you have any questions, please feel Irce to contact me. We greatly appreciate the
professionalism of your audit staff throughout this matter.


                                                     Sincerely,


                                                         Y(Wl<A1J /v-v
                                                     Laura R. Ingber
                                                     Section Chief
                                                     External Audit and Compliance Section
                                                     Inspection Division




                                               16 

                no. f«lt .... B ...... mllon. tip .... ', (Ill!) R<>po ... .. til.
     Offi<. of ~ lIosp«tOT c...nJ' , .hdit of tk. r ""a1 Y.. c ! GIJ lfuk .~ .... t of
                      lHpan_.t .r J .,tir< C1o.o"l' Card P""""",,
                           R<>po.,. to Rtpon RKo ........ datio.,
RtponRKo .... _datio.1-4:        "1'mure""'tcardboldon_towrilo~_ ,

ODd. tb<ir ~ officials
~"""opprovaI~. "
                              I£<



fB I R<>po.,. to RKo . . . .datio. 1-4: eo..:m. Tbe FBI will ~'idoe DOtice
C<JIl\..m...c. cbod _
                                                                                  to_
                                    awa-. """ p<riodicaUy fmIiDd<d of com..m....:. cbod



                          """ tb<ir c.nifJ'iD!l mr.c.n (i.o. "1'1"'"iDfl of6ci.ab) to pr<n'idoe
_....-..-.s"""p<riodicaIlyImliD:l_o f~ cb<d.~"""
"I'I""'"Ii ~




                                                17 

                                                                                                                                                                                    APPENDIX III

   BUREAU OF ALCOHOL, TOBACCO, FIREARMS
  AND EXPLOSIVES RESPONSE TO DRAFT REPORT




                                                          - IIqI- ,, , I •
                                                                                                            u.s. o.partmont of J~.tl ••




                                                                                                                                                     ,' ii- I
                                                                                                                   },••~
                                                                                                                    ,·•""
                                                                                                             0


                                                                                                                           •



                                                                                                                                                 ,
                                                                                                            n,,,,,," "r1\",,,1>,,1, T,>bocco,




                                                                                                                               ,i I:
                                                                                                                                  .I;
                                                                                                     .,

                                                                                                                                   "",
                                                                                                                                   .,
                                                                                                     ,!
                                                                                                                                   8.~
                                                                                                                                   i~
                                                                                                                                          ~~



                                                                                                                                                        .'-"
                                                                                                                                                            ~
                                                                                                                ~- ~

                                                                     L
                                                                                                            Fi"mm ,nd hpbi,'C'!




                                                                                                                                                       ~'
                                                                                                            ,~

                                                                                                                                                §;
                                                                                                                           •   0
                                                                                                                                "': "",.




                                                                                                                          ,
                                                                                                            ~
                                                                                                            ~,....."....,




                                                                                                                                     ~
                                                                                                            n-.""""

                                                                                                            l
                                                                                                ;;!
                                                                                  ~


                                                                      SEP191DH
                                                        -'-"
                                 ",~. .<;;:0
                     g
   <




                                                     -. ~ ~ H ~ ~~ ! >" i.
                     1:




                                                                          I'\.
                                                                                                                  ir
                                                                         > i!: >.




                                                                                                                    oft
                                                                               >1:'




                                                                                       .
    §"0~
                     ~~



                                                                           ... s~


                                                                                                                    o~
                                                                                                                  !i
    MEMORANDUM TO:                                           Roymond!. Beoudet
                                                                               ~-l1~
                                                                                                          ,,;r ,~ 0~


                                                                                                           ~~ ~ ,
                                                                                                                    -
                                                                               i-


                                                             1\.. in.,.: In"","", GlntTal for Audit
                                                                                                                ~
                                                                                                                  ~
                                                                                                                  ~
                                                                                                                  i
                                                                                       ~

                                                                                                  I ,t- ~~~s ,~ ~ i
                                                                                                                    ~




                                                                                                                  ,
                                                                                            s. ~ ,~ .>-g,""'"'1!if~



                                                                                  '"{)",#
                                                                                        l l H
                                                                         n·
                        ,•~;:;•~
                                                           ~ of ><




                                 FROM:
                                                                                           l 9.~
                                                                                             ll~




                                                             Mod: W_
                                                                                                                "
                                                                          ,




                                                             A";,_ Dmctor. Oflie, ofM"""l!"fT"'nt
                                                                                                    I ,I,       f
                                                                                                          ~~i 51




                                                                                                                ,
                                                                                                          ~~!! (,o

                                                                                                                           •
                                                                                                                -'lo ~cn

                                                                                                           ~g,1
                                                                                                                           0
                                              -
                                                                                                            1


                                                                                                [i"~ H
                                                                                                          ·i
                                                                                                          ,,..-                                   .. l",--.                       III~Ci
                                                                                                        I~~~
                                                                                                                                     ~~

                                                                                                           ~r
                                                                                                                                                            L~-i
                                       r.




                                                             AH' , Roopoooo OJ "'" Offk . of klsptotOl Gene,a1', (DIG)
                                                              ji" ~. ::'
                                         ...,

                                      ~11~ ~Q;'
                                                              ~.~.~




                            SliWECT'
                                                                                                  ~~ ~1!.!!
                                                                                                                      c

                                                                                                                                ."
                      ' ! , , ""cc
                                       0




                                                                                                           h                          Ri,.
                                                                                                        n



                                                                                                                                                                                        ,""
                                                                  ~
                                                                               'T_~~ oi~if




                                                             Review ofth< Fis,aJ Ycu lOll        A''''>SIIl<Jlt of Deporlrnent of




                                                                                                                                                                                  ~
                                                             """,ie< ClIo,&, Cord P'O I "'"


                                                                                                                                                                     ii'
                                                                                                                                                                     .,"
                                                                                                  !".



                                                                                                                                                                                I
    TIli, m,,,,,,,,,,,,don\ i. 10 providt tho Bure.., of A lcohol, 1OO ", co, firelirru . and Explo';""
ii ,.'. 10'j
                                                         ~ if




                                                                                                [If
                                                                           ,.i 'i~m" i:'• : ,iiw
        Hi"

                                                           ~

                                                                                      i!... ~i ~FI~             -
                                                                                               ~~~~                  ;"~:t:"

                                                                                                                                     ~. ~ !

                                                                                                                                                             ~~

                                                                                                                                                                      ," ~ .
                          6~' ~~-__
                            ~~I


                                                     j~!,
                                     lSo{
                                      "i'
                                             ~




                                                                                               T"

                                                                                                LB
              ••~~i iO ,~

                                         ~_oo




                                                                                                     ~                             ~




                                                                                                                                                       ~


                                                                                                                                                                        ,
                                     ~8[]


                                                                             f~lZ,~
                        i




                                                                                                                                                                               "
                                                                                                .}
                        J·oh'l




                   Ibe Off"", ofIno!","", Genetol' , .. ,olIlIllODdo.tioos,,~ tho ,evW.< of the
                          ~:c:o




                                                                                                                                                                                  ~_~
                                                                                                                                                                                  ~- ~
    '«pOllS< to
                                                     [~~



                                                                                               'fi
                                         o~~


                                                               g




                                                                                                     n
                                                                         [
         ,
                                                     S"
                                                                             [a



                                                                                                                                   'S:




                                                                                                                                                                             ,
    Dop.1Itm. .;. of JU5Iice [DOJ) Otor ~ . Cord trot:'''''' Th. obi""ti .. ofthis "",rrxnndom i. lo
                                                           ~ ~
                                                                      ..




                                                                                               ""
                                                                  !!- ..




                                                                                                                                                                                         0
                                                                                           ~!C"~




                                                                                                                                                                                  ~
                                                                                                                                                           [
                                                                  i:




    p!Oyi<\o • respon.e 10 """,,mrondolioo foor th.t all"<oI. AIT_
                                                                                                !l-
                                                                                                !l-

                                                                                                                    !1-
                                                                                                o
                                                     ~ ,-


                                                                                            H
                                                                            ,:r pL I.
                                                 - it




                                                                                            '.
                                                                                                                                                                         '.
                                                   ,n·
                                                    "§~..


                                                                                            •.


                                                                                                                                                                    ;/[ll
                                                                                                                  o·
                              ~~5;s:




                                                                            ri .1.".i: og                                          "'"·rr
                      '~     [~J
                              ~i5

                                                    i~-l




                                                                                                                                     ~-~



                                                                                                                                                                                 ;i-~

                                                                                                                                                                                        §~~~
                                                                                                                                                                       _.
    F




    EwUfl tilO1 eat'li IKlld,,, authori=l to \1'Iit< convml<nc •• hecks and Ul<ir "PII<ovinll oflkial>..-.:
                                                                         ""-




                                                                                                                                                                    il
                                                                                                                                                                    il
                                                                                                                                       "
                                                                          no
                            ..,'<~
                                              ~~




                                                                                                                  Ol-~

                                                                                            i~

                                                                                                                                                           :~
                                                                                                                                                           ':!~



                                                                                                                                                                                            - ~
                                                                                                                                                                                 _0
                                                                                       s",,-~-"
                                                                                                ~§0
                                                                                                0
                    :

                      "




    "WMC and pcriodi<'Olh "rn1odcd of cooy en."". cl>::,k rcotrioti"", ODd ",,/Koval .equiremonts,
                                                                                                                                                           ~


                                                                                                                                                                                    ~
                                                                         "a


                                                                                                      "
                                                                                                ,
               -
                     ~




                                                                                         "
                                                                                                                                    •




                                                                                                                                                                                           •
                                               '[1
                                                                         ,~ "i!O-'



                                                                                                                                                                             "
                                                                                                                                         "
      s'I ... :;I




                                            i 'ml
                             i5S-
    ~H"




    A IT IIG"''''' wit!> ills "co~i<lD. AT' eurr<ntly ha. a directi"" io pi""" wiIi<h '''''''.. tiro!
                          ~l~~.
                          ~l~~
                                         ~ ~ ~~



                                                                   ;;'~~.
                                                                !'2,~~.




                                                                                '"~ [""~i                     ~
                                                                                                         ~~ ~h.



                                                                                                                                         ;J;r~.
                                                                                                                                                     .~.
                                                                                                                                                 §. ~ .~.

                                                                                                                                                            ..,~-.~
                                                                                                                                                                1.~~·~
                                                                                                                                                                       U_~~~::-

                                                                                                                                                                                           ~ ~
                                                                                                                                                                                        '"~~
                                                                                     ;..
  .". 8 )-




                                                                                   0 )-
                                                               ;' g -f!.pp




                                                                                    '" [
                                                                          !! ,.,!
          [oil
       ~~[ll
                    ..~~~~
                     ~ ~ a~


                                     11.:::- .~
                                          11", ~ ~
                                              ~H~




                                                                                                                                                                       ~ ~-i:~
                                                                                                                                                                                  i' "~
                                                                                                                                           §. ~. ri
                                                                                                                                                                d


                                                                                                                                                                                 .
                                                                                                                               - s.-'s.




    CIIId Joolden ,.ho or. Ol1tborizcd 10 ",rite coo~.oi""" d.ech.nd th,ir "I't"ovi.~ oUki,,!> or•
                                                         ~~[

                                                               ""~'"




                                                                                                                                                                                 ~H
                                                               s-""_



                                                                                q!

                                                                                    '.
                                                                                      j




                                                                                                                                                                s. '"".ill
                                      3~ [~




                                                                                                                 ~




                                                                                                                               Ii'~ ~ !l.,-~~
                                                                                 < n
                                                                   ""e "




                                                                                                                          _not,,,,,,
                                                                                                  .


    • _'" onJ p:1iO<lic.lI)' m roird,J ur '01"''''"''''''" """,,,,                 O<k! a""nwaJ ""luilOO\eItt<
                                                                                                                 -




                                                                                                                                                                                        iO
                                                                             < II




                                                                                                                                                                      s'~
                                                               ;'g
       ~~




                                                                ~- "




                                                                                '
                                                               ~.




    Finoll)', ATF """ro!,,,'"'-lk ,,-,,1""'8 i. '",,",''''';''''''' clotck =trictioo . ond " quir<mon"_
                                                                               ~
                                                                               ~




                                                                                                                 ~




                                                                                                                                                            ~
                                                                                                                                                     M




                                                                                                                                                                              •
                                            •
                            ,
                            Sir




                                                                            .Ii""
    s~
    ~"
    ~I
                            ::l~




                                                                                                                                             ~



                                                                                                                                                                         f~
                                                                                                                                                                      ,,•~~-




    Soo.lld Y"" have on)' qu",tioo.1 rejjOfd iAt;: tbIlI1<IIlO, pl .... !eo] fr•• 10 <001><1 S\o:"O Kolo;;i., ot
                                                                                                                                                            ~
                                            i                        'i!
    ~'il
                            ' ~
                                     •'"~




                                                                                                                                                                -~
                                     "

                                                               ;




                                                                                                                                                      ;
    h




    202~~·1707_




                                                                                                     18 

                                                                  APPENDIX IV

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS 

                  NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of this report to
the Department’s Justice Management Division (JMD), Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF), and the Federal Bureau of Investigation (FBI).
JMD’s response is incorporated in Appendix I. The FBI’s response is incorporated in
Appendix II and ATF’s response is incorporated in Appendix III. The following
provides the OIG analysis of the response and summary of actions necessary to
close the report.

Recommendation:

   1. Periodically issue reminders to both purchase card holders and 

      approving officials regarding the importance of performing and 

      reviewing monthly reconciliations for every active account. 


      Resolved. JMD concurred with our recommendation. JMD stated in its
      response that beginning in Fiscal Year (FY) 2015, periodic reminders will be
      sent to purchase card holders and approving officials emphasizing the
      importance of performing and reviewing monthly reconciliations for every
      active account.

      This recommendation can be closed when we receive evidence that JMD
      sends reminders to purchase card holders and approving officials
      emphasizing the importance of performing and reviewing monthly
      reconciliations.

   2. Update the DOJ Charge Card Management Plan to ensure that
      appropriate purchase card agency program coordinators (APC) and
      travel card coordinators receive notification when an employee with
      a charge card leaves employment and promptly cancel all associated
      charge card accounts.

      Resolved. JMD concurred with our recommendation. JMD stated in its
      response that it will update the FY 2015 Charge Card Management Plan and
      work with components to determine appropriate notifications for APCs and
      travel card coordinators when an employee with a charge card leaves
      employment.

      This recommendation can be closed when: (1) JMD updates the FY 2015
      Charge Card Management Plan, and (2) APCs and travel card coordinators
      receive notices when an employee with a charge card leaves employment.



                                        19 

3. Work with other DOJ components to implement a process that
   ensures component APCs receive and track all travel card training
   certifications so they can identify and prompt card holders due to
   receive required travel card refresher training.

  Resolved. JMD concurred with our recommendation. JMD stated in its
  response that JMD will work with other DOJ components to ensure that travel
  card holders receive required training and that appropriate personnel
  maintain certifications.

  This recommendation can be closed when we receive evidence that JMD
  worked with DOJ components to ensure that required training is completed
  and certifications are maintained by appropriate component personnel. The
  evidence provided should include documentation of any new guidance or
  procedures implemented.

4. Ensure that card holders authorized to write convenience checks and
   their approving officials are aware and periodically reminded of
   convenience check restrictions and approval requirements.

  Resolved. The FBI and ATF concurred with our recommendation. The FBI
  stated in its response that it will periodically notify authorized convenience
  check holders and their approving officials regarding convenience check
  restrictions and requirements. ATF stated in its response that it will also
  periodically remind card holders authorized to write convenience checks and
  approving officials on the restrictions and approval requirements.

  This recommendation can be closed when we receive evidence that the FBI
  and ATF send periodic reminders to card holders authorized to write
  convenience checks and approving officials regarding the restrictions and
  approval requirements.




                                     20 

